June 18, 2003

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Wide Field of View Camera Program
         (Report Number DA-AR-03-005)

This report presents the results of our self-initiated audit of the Wide Field of View
Camera Program (Project Number 02BG024DA000).

                                                Background
The Postal Service is developing the Wide Field of View Camera System to replace the
current Wide Area Barcode Readers in use on all barcode sorting machines.1 The Wide
Area Barcode Readers will be phased out due to end-of-life issues and the inability to
support market-driven initiatives. In October 2001, Engineering received approval for
$149 million to purchase Wide Field of View Camera Systems for Delivery Barcode
Sorters and Carrier Sequence Barcode Sorters.

The potential benefits of the new camera system will be to provide improvements to
current reader acceptance rates, enable current mail processing equipment to be
integrated with evolving revenue protection technologies, reduce interruptions in
operations due to unsupportable Wide Area Barcode Reader equipment, support
information platform initiatives, and facilitate deployment of new letter mail sorting
systems.

The Wide Field of View Camera System’s specific performance requirements include
improved read rate performance, overall system performance, system reliability and
maintainability. Additionally, the systems will permit reading the Information Based
Indicia2 and other two dimensional codes on full height letter mail.

                             Objectives, Scope, and Methodology
The objectives of this audit were to obtain background information on the Wide Field of
View Camera System and to identify potential audit issues and formulate detailed audit

1
    Mail Processing Barcode Sorters are not scheduled for Wide Area Barcode Reader replacement.
2
    Information Based Indicia is a two-dimensional barcode.



                                              Restricted Information
Wide Field of View Camera Program                                                                  DA-AR-03-005



objectives, as appropriate. During the course of our review, we attended field First
Article Testing, interviewed Postal Service officials, reviewed relevant documentation,
and consulted with an Office of Inspector General (OIG) expert. We identified several
benefits and areas of concern with the Wide Field of View Camera System. As a result,
we are issuing this audit report. This audit was conducted from September 2002
through June 2003, in accordance with generally accepted government auditing
standards and included such tests of internal controls as were considered necessary
under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                                   Results
The audit revealed there are several positive aspects of the new Wide Field of View
Camera System. For example, during the field First Article Test the systems
demonstrated the capability to read addresses on mailpieces that were previously
difficult to process. Specifically, the system processed Postal Numeric Encoding
Technique (POSTNET) 3 barcodes, glossy windowed mailpieces and colored envelopes
better than the Wide Area Barcode Readers. As a result of these improvements, the
number of rejected mailpieces decreased.

However, during our review, the OIG identified two areas of concern. First, there were
system reliability issues. Second, Engineering did not adequately perform testing of
Information Based Indicia. Management’s comments, in their entirety, are included in
the appendix of this report.

Reliability of the Wide Field of View Camera

Our review found the Wide Field of View Camera System experienced reliability issues
during the field First Article Test. Specifically, there were ten occurrences of camera
offline conditions and two computer installation failures. During the test period, if
extensive corrective maintenance by the vendor was performed, the test may have
been terminated.4 Consequently, the vendor did not attempt to resolve the reliability
issues at that time in order to complete field First Article Testing.5 Subsequently, in
order to pinpoint why the reliability issues occurred, Engineering postponed the national
deployment of the Wide Field of View Camera System. The vendor determined the

3
   POSTNET barcodes, are used to encode ZIP Codes on mail.
4
  If corrective maintenance exceeds 60 minutes, it would be considered a remove and replace event. If more than
one Wide Field of View Camera System is recorded as a remove and replace event during testing, the field First
Article Test may be terminated.
5
  Engineering completed testing on November 23, 2002, with a conditional acceptance letter issued on January 9,
2003.


                                                        2
                                             Restricted Information
Wide Field of View Camera Program                                                     DA-AR-03-005



camera offline conditions occurred due to human and software errors. In addition, the
vendor could not determine why some computers failed after installation. As a result,
the vendor created an updated software version to correct the reliability issues.6

Engineering officials stated Software Process management plans to follow the Software
Development Life Cycle test procedures to ensure the reliability issues will be resolved
in updated software versions.7 If the Wide Field of View Camera System is deployed
without correcting these issues and documenting results, productivity in mail processing
facilities may decrease.

Recommendation

We recommend the vice president, Engineering:

       1. Continue to monitor and report on the Wide Field of View Camera System’s
          reliability issues.

Management’s Comments

Management agreed with our recommendation stating that Engineering continues to
monitor the reliability issues of the Wide Field of View Camera Systems deployed
nationwide.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the issues identified in the
report.

Testing of Information Based Indicia

Engineering performed inadequate testing of the Wide Field of View Camera System’s
ability to read Information Based Indicia. The field First Article Test plan stated a test
objective was to measure the system’s read and missort performance concerning
Information Based Indicia.

During field First Article Testing, the test team collected data using mailpieces marked
with POSTNET and Information Based Indicia. The Delivery Bar Code Sorter
processed mailpieces by POSTNET barcodes only. The test team did not examine data
for the Information Based Indicia read rates. Engineering officials indicated mail was
not sorted according to the Information Based Indicia barcodes because a sort plan had
not been developed. They did not have the necessary requirements in order to develop



6
    The software changes are represented in version 2.2.
7
    The Software Development Life Cycle includes Alpha, Pre-Beta, and Beta testing.


                                                           3
                                                Restricted Information
Wide Field of View Camera Program                                                                   DA-AR-03-005



a sort plan for decoding and sorting Information Based Indicia in an operational
environment.8

Consequently, Engineering cannot ensure the system will read Information Based
Indicia under normal operating conditions. A functional system, which properly reads
and sorts Information Based Indicia, will give the intended flexibility in addressing and
managing customers’ mailing requirements.

Recommendations

We recommend the vice president, Engineering:

    2. Ensure that adequate requirements are developed for testing Information Based
       Indicia functionality.

    3. Test the ability of the latest version of the Wide Field of View Camera System to
       decode and sort Information Based Indicia correctly in an operational
       environment.

Management’s Comments

Management agreed with recommendations 2 and 3 stating that Engineering plans to
have detailed requirements for testing the Information Based Indicia functionality by
July 2003. Engineering is also developing test decks that will enable them to measure
the system’s ability to decode new Information Based Indicia formats that have been
released. They plan on performing extensive testing using all test decks in an
operational environment by August 2003.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 2 and 3 and the actions
taken and planned should correct issues identified in the report.




8
 The marketing organization is responsible for developing Information Based Indicia requirements to be used by
Engineering. These requirements include various types of Information Based Indicia formats.


                                                        4
                                             Restricted Information
Wide Field of View Camera Program                                          DA-AR-03-005



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Tracy A. LaPoint, director,
Developmental, at (703) 248-2100 or me at (703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: John A. Rapp
    John Keegan
    Susan M. Duchek




                                               5
                                    Restricted Information
Wide Field of View Camera Program                            DA-AR-03-005



                      APPENDIX. MANAGEMENT’S COMMENTS




                                               6
                                    Restricted Information
Wide Field of View Camera Program                            DA-AR-03-005




                                               7
                                    Restricted Information
